No. 19-930

 

 

In THE
Supreme Court of the United States

CIC SERVICES, LLC,
Petitioner,
v.

INTERNAL REVENUE SERVICE; DEPARTMENT OF
TREASURY; UNITED STATES OF AMERICA,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Sixth Circuit

BRIEF OF THE AMERICAN COLLEGE OF TAX
COUNSEL AS AMICUS CURIAE IN SUPPORT
OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,766 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 14, 2020.

 

Wilson-Epes Printing Co., Inc.
